Audit Report




OIG-13-033
SAFETY AND SOUNDNESS: Failed Bank Review of Citizens First
National Bank, Princeton, Illinois
March 8, 2013




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                           DEPARTMENT OF THE TREASURY
                                                  W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                                      March 8, 2013


            OIG-13-033

            MEMORANDUM FOR THOMAS J. CURRY
                           COMPTROLLER OF THE CURRENCY

            FROM:                      Jeffrey Dye /s/
                                       Director, Banking Audits

            SUBJECT:                   Failed Bank Review of Citizens First National Bank


            This memorandum presents the results of our review of the failure of Citizens First
            National Bank (Citizens) located in Princeton, Illinois, and the supervision of the
            bank by the Office of the Comptroller of the Currency (OCC). Citizens was formed
            in 1930. At the time of its failure, the bank was a subsidiary of Princeton National
            Bancorp, Inc. (PNB), located in Peoria, Illinois. Citizens had 21 offices in the north-
            central Illinois area. OCC closed Citizens and appointed the Federal Deposit
            Insurance Corporation (FDIC) as receiver on November 2, 2012. As of
            September 30, 2012, the bank had $924 million in total assets. As of
            January 31, 2013, FDIC estimated that the loss to the Deposit Insurance Fund is
            $47.7 million.

            In January 2009, PNB issued $25.1 million in preferred stock to the Department of
            Treasury (Treasury) under Treasury’s Troubled Asset Relief Program (TARP),
            Capital Purchase Program. 1 PNB injected approximately $8.8 million of the TARP
            funds into Citizens with the remainder being used to pay down PNB’s debt.
            Treasury expects that none of the $25.1 million in TARP funds will be repaid.

            Because the loss to the Deposit Insurance Fund is less than $150 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
            review of the failure of Citizens that was limited to (1) ascertaining the grounds
            identified by OCC for appointing the FDIC as receiver and (2) determining whether
            any unusual circumstances exist that might warrant a more in-depth review of the


            1
              TARP is a program established under the Emergency Economic Stabilization Act of 2008 with the
            goal of stabilizing the U.S. financial system and preventing a systemic collapse. The Capital
            Purchase Program, one of several programs under TARP, was created in October 2008 to stabilize
            the financial system by providing capital to viable financial institutions of all sizes throughout the
            nation. The program was closed to new investments on December 31, 2009.
OIG-13-033
Page 2

loss. In performing our review we (1) examined documentation related to the
appointment of FDIC as receiver and (2) interviewed OCC examination personnel.

We performed our fieldwork during November and December 2012. We conducted
this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.


Cause of Citizens First National Bank’s Failure
OCC appointed FDIC receiver based on the following grounds: (1) the bank had
experienced substantial dissipation of assets or earnings due to unsafe or unsound
practices, (2) the bank was in an unsafe or unsound condition to transact business,
(3) the bank had incurred or was likely to incur losses that would deplete all or
substantially all of its capital and there was no reasonable prospect for it to become
adequately capitalized, (4) the bank’s unsafe or unsound practices or conditions were
likely to seriously prejudice the interests of the Deposit Insurance Fund, and (5) the
bank was undercapitalized and had no reasonable prospect of becoming adequately
capitalized.

The primary cause of Citizens’ failure was its pursuit of an aggressive growth strategy
to expand the bank’s geographic area of business and increase its commercial real
estate (CRE) lending without implementing the credit risk management practices or the
strategic and capital planning needed to support its increasing risk profile. The
expansion, combined with Citizens’ lax underwriting, weak loan monitoring and an
inadequate loan review function, resulted in a concentration of poorly performing CRE
loans, with a sub-concentration in construction and development loans. Sustained
economic deterioration in Citizens’ lending area and the failure of the board and
management to react quickly and decisively to the changing conditions led to asset
deterioration, loan losses, and depletion of the bank’s capital.


Conclusion
Based on our review of the causes of Citizens’ failure and the grounds identified by
OCC for appointing FDIC as receiver, we determined that there were no
circumstances surrounding the bank’s failure that would necessitate an in-depth
review. We provided a draft of this memorandum to OCC management for
OIG-13-033
Page 3

comment. In its response, OCC stated that it agreed with our conclusion as to the
causes of Citizens’ failure and that it had no concerns with our determination that
an in-depth review of the bank’s failure is not warranted. The response is provided
as Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or James
Lisle, Audit Manager, at (202) 927-6345.

Attachments
         OIG-13-033

       Attachment 1
Management Response
                                                       OIG-13-033

                                                     Attachment 2
                                                       Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
   Group

Office of the Comptroller of the Currency

   Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
